<html>
<title> - AN EXAMINATION OF FEDERAL FLOOD MAPS IN A CHANGING CLIMATE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                  AN EXAMINATION OF FEDERAL FLOOD MAPS
                         IN A CHANGING CLIMATE

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT
                     SUBCOMMITTEE ON INVESTIGATIONS
                             AND OVERSIGHT

                                 OF THE

                      COMMITTEE ON SCIENCE, SPACE,
                             AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 27, 2020

                               __________

                           Serial No. 116-70

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-836PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
LIZZIE FLETCHER, Texas               BRIAN BABIN, Texas
HALEY STEVENS, Michigan              ANDY BIGGS, Arizona
KENDRA HORN, Oklahoma                ROGER MARSHALL, Kansas
MIKIE SHERRILL, New Jersey           RALPH NORMAN, South Carolina
BRAD SHERMAN, California             MICHAEL CLOUD, Texas
STEVE COHEN, Tennessee               TROY BALDERSON, Ohio
JERRY McNERNEY, California           PETE OLSON, Texas
ED PERLMUTTER, Colorado              ANTHONY GONZALEZ, Ohio
PAUL TONKO, New York                 MICHAEL WALTZ, Florida
BILL FOSTER, Illinois                JIM BAIRD, Indiana
DON BEYER, Virginia                  FRANCIS ROONEY, Florida
CHARLIE CRIST, Florida               GREGORY F. MURPHY, North Carolina
SEAN CASTEN, Illinois                VACANCY
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
CONOR LAMB, Pennsylvania
VACANCY
                                 ------                                

                      Subcommittee on Environment

              HON. MIKIE SHERRILL, New Jersey, Chairwoman
SUZANNE BONAMICI, Oregon             ROGER MARSHALL, Kansas, 
LIZZIE FLETCHER, Texas                   Ranking Member
PAUL TONKO, New York                 BRIAN BABIN, Texas
CHARLIE CRIST, Florida               ANTHONY GONZALEZ, Ohio
SEAN CASTEN, Illinois                JIM BAIRD, Indiana
BEN McADAMS, Utah                    FRANCIS ROONEY, Florida
CONOR LAMB, Pennsylvania             GREGORY F. MURPHY, North Carolina
                                 ------                                

              Subcommittee on Investigations and Oversight

                  HON. BILL FOSTER, Illinois, Chairman
SUZANNE BONAMICI, Oregon             RALPH NORMAN, South Carolina, 
STEVE COHEN, Tennessee                   Ranking Member
DON BEYER, Virginia                  ANDY BIGGS, Arizona
JENNIFER WEXTON, Virginia            MICHAEL WALTZ, Florida
                        
                        
                        C  O  N  T  E  N  T  S

                           February 27, 2020

                                                                   Page

Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Mikie Sherrill, Chairwoman, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    11
    Written Statement............................................    12

Statement by Representative Roger Marshall, Ranking Member, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    13
    Written Statement............................................    14

Statement by Representative Bill Foster, Chairman, Subcommittee 
  on Investigations and Oversight, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................    15
    Written Statement............................................    16

Statement by Representative Ralph Norman, Ranking Member, 
  Subcommittee on Investigations and Oversight, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    17
    Written Statement............................................    19

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    19
    Written Statement............................................    21

                               Witnesses:

Mr. Michael Grimm, Assistant Administrator for Risk Management, 
  Federal Insurance and Mitigation Administration, Federal 
  Emergency Management Agency, U.S. Department of Homeland 
  Security
    Oral Statement...............................................    23
    Written Statement............................................    26

Mr. Mark Osler, Senior Advisor for Coastal Inundation and 
  Resilience, National Oceanic and Atmospheric Administration, 
  U.S. Department of Commerce
    Oral Statement...............................................    36
    Written Statement............................................    38

Mr. Ryan R. Branfort, PLS, GISP, Senior Vice President, Wilson & 
  Company, Inc., Engineers & Architects
    Oral Statement...............................................    49
    Written Statement............................................    51

Mr. Chad Berginnis, CFM, Executive Director, Association of State 
  Floodplain Managers
    Oral Statement...............................................    59
    Written Statement............................................    61

Discussion.......................................................    83

             Appendix I: Answers to Post-Hearing Questions

Mr. Michael Grimm, Assistant Administrator for Risk Management, 
  Federal Insurance and Mitigation Administration, Federal 
  Emergency Management Agency, U.S. Department of Homeland 
  Security.......................................................    96

Mr. Mark Osler, Senior Advisor for Coastal Inundation and 
  Resilience, National Oceanic and Atmospheric Administration, 
  U.S. Department of Commerce....................................   128

Mr. Ryan R. Branfort, PLS, GISP, Senior Vice President, Wilson & 
  Company, Inc., Engineers & Architects..........................   141

Mr. Chad Berginnis, CFM, Executive Director, Association of State 
  Floodplain Managers............................................   145

            Appendix II: Additional Material for the Record

Statements submitted by Representative Suzanne Bonamici, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................   154

Letters submitted by Representative Suzanne Bonamici, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................   158

Report submitted by Representative Suzanne Bonamici, Subcommittee 
  on Environment, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................   178

Document submitted by Representative Roger Marshall, Ranking 
  Member, Subcommittee on Environment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........   208

Summary submitted by Representative Ralph Norman, Ranking Member, 
  Subcommittee on Investigations and Oversight, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   210

Presentation submitted by Mr. Ryan R. Branfort, PLS, GISP, Senior 
  Vice President, Wilson & Company, Inc., Engineers & Architects.   212

Study submitted by Mr. Chad Berginnis, CFM, Executive Director, 
  Association of State Floodplain Managers.......................   219

Summary submitted by Mr. Chad Berginnis, CFM, Executive Director, 
  Association of State Floodplain Managers.......................   242

 
                  AN EXAMINATION OF FEDERAL FLOOD MAPS
                         IN A CHANGING CLIMATE

                              ----------                              


                      THURSDAY, FEBRUARY 27, 2020

                  House of Representatives,
                       Subcommittee on Environment,
                     joint with the Subcommittee on
                      Investigations and Oversight,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

     The Subcommittees met, pursuant to notice, at 2:58 p.m., 
in room 2318 of the Rayburn House Office Building, Hon. Mikie 
Sherrill [Chairwoman of the Subcommittee on Environment] 
presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

     Chairwoman Sherrill. This hearing will come to order. 
Without objection, the Chair is authorized to declare recess at 
any time. Good afternoon, and welcome to the Environment 
Subcommittee's first hearing of 2020. This is my first hearing 
since taking over the Subcommittee Chairmanship from my 
colleague and friend Mrs. Fletcher. I'm looking forward to 
continuing the bipartisan work of this Subcommittee with 
Ranking Member Marshall on issues related to the environment, 
climate change, and weather research, issues that are critical 
to New Jersey, and to the country. This is also a joint 
Subcommittee hearing with the Investigations and Oversight 
Subcommittee, and I'd like to welcome my fellow Chair, Dr. 
Foster, and Ranking Member, Mr. Norman. I assume they will be 
here shortly.
     The focus of today's hearing is painfully salient in New 
Jersey, a historically flood-prone State. New Jersey is a place 
where both coastal and inland communities have unfortunately 
had to deal with extensive flooding events, and, as a result, 
actively invest in understanding and mitigating these flood 
risks. In my district, towns such as Pequannock, Little Falls, 
Woodland Park, Pompton Lakes, and Wayne, that experience some 
of the most extreme flooding, work hard to protect their 
residents with measures like home buyouts, elevations, dredging 
waterways, and even flying drones to proactively identify flood 
hazards in rivers. They appreciate that the National Flood 
Insurance Program (NFIP) is a critical part of providing this 
protection to communities, and are committed to partner with 
you to get the science underlying the FEMA (Federal Emergency 
Management Agency) flood mapping process right.
     Assessments of flood risks today must consider that 
climate change is accelerating rates of sea level rise, intense 
heavy rains, and other extreme weather events, creating 
flooding patterns distinct and more damaging than norms of the 
past. And it's not just New Jersey and coastal communities, as 
Ranking Member Marshall knows too well. Inland States faced 
billions of dollars of damage from extreme wet conditions 
consistent with climate change last year, with a similar 
forecast just released by the National Oceanic and Atmospheric 
Administration (NOAA) for the coming year for the Mississippi 
River and Great Plains Basin.
     The FEMA flood maps are intended to determine insurance 
rates for 1 year ahead, and set building standards for the 
floodplain. Despite this intention, the reality is that 
homeowners and local governments continue to use the maps to 
make both short and long term decisions like buying a home, 
choosing a mortgage, and planning adaption measures to deal 
with future flooding events. Given the public need, we must 
ensure that the most up-to-date science of predicting flood 
risk is accessible in a centralized, accurate, and easy to 
understand way. While we are primarily focused today on 
supporting inter-agency efforts in Federal flood mapping, I 
also want to emphasize the importance of incorporating on the 
ground community feedback into the FEMA flood mapping process.
     My understanding from local officials and constituents in 
my district is that providing such input can be onerous, 
expensive, and frustrating. We have, for example, a case in 
Pequannock where scientific models adopted by an approved FEMA 
cooperating technical partner in New Jersey had not been 
admitted into a remapping appeals process, and instances of 
delays and resolutions that put homeowners and our communities 
in a flood map limbo, affecting their ability to sell homes, 
make improvements to their property, and move forward on 
important municipal planning decisions.
     I believe this local expertise is critical to getting the 
science of our flood maps right, and want to understand how we 
can best support FEMA's efforts to partner with communities not 
only in New Jersey, but across the country to incorporate local 
scientific expertise efficiently, and in a common sense way. In 
this hearing I hope we can have a constructive conversation 
about how agencies can leverage their unique capabilities and 
local information to improve the science and communication 
around flood risk. While FEMA is the expert in administering 
disaster aid, and mitigating risk on the floodplain, science 
agencies like NOAA are hard at work collecting data on flood 
prone environments, developing state-of-the-art models, and 
generating forecasts, maps, and other communications. I hope 
that we can find inter-agency synergies that improve the 
science and get it out there into communities, where it is 
sorely needed.
     And science is only one part of the solution, as the other 
communities of jurisdiction working hard on flood mitigation 
know well. In fact, this morning I submitted a statement for 
the record to the Transportation and Infrastructure Committee 
for their Member Day Hearing outlining my district's priorities 
related to the development of the Water Resources Development 
Act, or WRDA, which included the need to address flood risk. I 
am pleased to welcome our distinguished panel to today's 
hearing. They will provide the perspective of both the Federal 
Government and on-the-ground experts.
     [The prepared statement of Chairwoman Sherrill follows:]

    Good afternoon, and welcome to the Environment 
Subcommittee's first hearing of 2020. This is my first hearing 
since taking over the Subcommittee Chairmanship from my 
colleague and friend, Ms. Fletcher. I am looking forward to 
continuing the bipartisan work of this Subcommittee with 
Ranking Member Marshall on issues related to the environment, 
climate change, and weather research; issues that are critical 
to New Jersey, and to the country. This is also a joint 
Subcommittee hearing with the Investigations & Oversight 
Subcommittee, and I would like to welcome my fellow Chair Dr. 
Foster and Ranking Member Mr. Norman.
    The focus of today's hearing is painfully salient in New 
Jersey, a historically flood-prone state. New Jersey is a place 
where both coastal and inland communities have unfortunately 
had to deal with extensive flooding events, and as a result 
actively invest in understanding and mitigating these flood 
risks. In my district, towns such as Pequannock, Little Falls, 
Woodland Park, Pompton Lakes, and Wayne that experience some of 
the most extreme flooding, work hard to protect their residents 
with measures like home buy-outs, elevations, dredging 
waterways, and even flying drones to proactively identify flood 
hazards in rivers. They appreciate that the National Flood 
Insurance Program is a critical part of providing this 
protection to communities and are committed to partner with you 
to get the science underlying the FEMA flood mapping process 
right.
    Assessments of flood risk today must consider that climate 
change is accelerating rates of sea level rise, intense heavy 
rains, and other extreme weather events, creating flooding 
patterns distinct and more damaging than norms of the past. And 
it's not just New Jersey and coastal communities, as Ranking 
Member Marshall knows too well; inland states faced billions of 
dollars of damage from extreme wet conditions consistent with 
climate change last year, with a similar forecast just released 
by the National Oceanic and Atmospheric Administration for the 
coming year for the Mississippi River and Great Plains basin.
    The FEMA flood maps are intended to determine insurance 
rates for one year ahead and set building standards for the 
floodplain. Despite this intention, the reality is that 
homeowners and local governments continue to use the maps to 
make both short- and long- term decisions likebuying a home, 
choosing a mortgage, and planning adaptation measures to deal 
with the future flooding events. Given the public need, we must 
ensure that the most up to date science of predicting flood 
risk is accessible in a centralized, accurate, and easy-to-
understand way.
    While we are primarily focused today on supporting inter-
agency efforts in federal flood mapping, I also want to 
emphasize the importance of incorporating ``on-the-ground'' 
community feedback into the FEMA flood mapping process. My 
understanding from local officials and constituents in my 
district is that providing such input can be onerous, 
expensive, and frustrating. We have, for example, a case in 
Pequannock where scientific models adopted by an approved FEMA 
Cooperating Technical Partner in New Jersey have not been 
admitted into a remapping appeals process. And instances of 
delays in resolutions that put homeowners and our communities 
in a flood map limbo, affecting their ability to sell homes, 
make improvements to their property, and move forward on 
important municipal planning decisions. I believe this local 
expertise is critical to getting the science of our flood maps 
right, and want to understand how we can best support FEMA's 
efforts to partner with communities, not only in New Jersey but 
across the country, to incorporate local scientific expertise 
efficiently and in a common-sense way.
    In this hearing, I hope we can have a constructive 
conversation about how agencies can leverage their unique 
capabilities and local information to improve the science and 
communication around flood risk. While FEMA is the expert in 
administering disaster aid and mitigating risk on the 
floodplain, science agencies like NOAA are hard at work 
collecting data on flood-prone environments, developing state-
of-the-art models, and generating forecasts, maps, and other 
communications. I hope that we can find interagency synergies 
that improve the science and get it out there into communities 
where it is sorely needed.
    And science is only one part of the solution, as the other 
committees of jurisdiction working hard on flood mitigation 
know well. In fact, this morning, I submitted a statement for 
the record to the Transportation and Infrastructure Committee 
for their Member Day hearing outlining my district's priorities 
related to the development of the Water Resources Development 
Act, or WRDA, which included the need to address flood risk.
    I am pleased to welcome our distinguished panel to today's 
hearing. They will provide the perspective of both the federal 
government and on-the-ground experts.

     Chairwoman Sherrill. The Chair now recognizes Dr. Marshall 
for an opening statement.
     Mr. Marshall. All right. Thank you so much for holding 
this joint Subcommittee hearing, Chairwoman Sherrill and 
Chairman Foster. As you said earlier, this is the first time 
the Environment Subcommittee has convened since you were 
appointed, Chairwoman, so let me welcome you as well to the 
Subcommittee, and I look forward to working with you as well.
     I want to express my appreciation for this Committee's 
focus on improving our preparedness in a changing climate. We 
have held hearings of all kinds of extreme weather. From 
windstorms, to hurricanes, to weather prediction models, policy 
that helps protect lives and property is a responsibility that 
should be at the top of every Member of Congress's priority 
list. Today's hearing is another chance to discuss a type of 
extreme weather event, and how we are preparing to lessen the 
damage and effects it causes. Flood events occur in every State 
and territory, and cause an average of 80 deaths per year. It's 
easy to see how coastal areas, like Florida or New Jersey, are 
susceptible, but these events also have a great impact on 
agriculture, food, supply, and crop insurance for inland States 
like Kansas.
     In 2019 Kansas saw one of the worst years of extensive 
flooding, with at least $15 million of infrastructure damage, 
and $3.8 million in Federal flood insurance claims. It's 
impossible to gauge just how much damage this has caused on 
topsoil loss, land realignment, and other factors that affect 
the day to day life of the agriculture community. What we do 
know is that 13 dams were damaged, and well systems were 
overwhelmed so much that trucks are still delivering up to 
40,000 gallons of clean water every day to Northeast Kansas. 
But as the saying goes, from challenges come opportunity.
     The Kansas Department of Agriculture, already underway 
with a project to map the State's floodplains with 2D 
technology, has used the 2019 floods as a way of validating 
their models, and getting trust among communities. They have 
also spread more awareness of the State's Base Flood Elevation 
(BFE) Portal, a collaborative project that allows users to draw 
a polygon for their property, and see BFE value, as well as the 
approximate lowest adjacent grade value-based on LIDAR (Light 
Detection and Ranging). This type of tool is extremely helpful 
because it gives property owners an idea of their chances to 
obtain a Letter of Map Revision before they spend money on a 
surveyor.
     I look forward to hearing Mr. Ryan Branfort's testimony on 
how similar technologies and services, along with geospatial 
data, can help improve the flood mapping of FEMA and other 
Federal agencies. I also look forward to hearing from all our 
witnesses on the progress of the USGS (United States Geological 
Survey) 3D Elevation Program, or 3DEP, as it moves forward with 
the goal of completing a nationwide LIDAR mapping by 2023. 67 
percent of the Nation has been completed, and more than 600 
different applications will benefit from this enhanced 
elevation data, including flood risk management and precision 
agriculture. And now I'd like to enter this document into the 
record showing organizations that support 3DEP.
     Chairwoman Sherrill. Without objection.
     Mr. Marshall. The idea that a Federal program can satisfy 
multiple needs and be used in so many different ways is what 
every program should strive to achieve. If we are going to 
spend millions of taxpayer dollars in a multi-year coordinated 
effort, I hope the final result is not a simple one trick pony. 
I want to again thank our witnesses for being here, and I look 
forward to hearing your testimony. Thank you, Madam Chair, and 
I yield back the balance of my time.
     [The prepared statement of Mr. Marshall follows:]

    Thank you for holding this joint Subcommittee hearing, 
Chairwoman Sherrill and Chairman Foster. I believe this is the 
first time the Environment Subcommittee has convened since you 
were appointed Chairwoman, so welcome to the subcommittee and I 
look forward to working with you.
    I want to express my appreciation for this Committee's 
focus on improving our preparedness in a changing climate. We 
have held hearings on all kinds of extreme weather--from 
windstorms to hurricanes to weather prediction models. Policy 
that helps protect lives and property is a responsibility that 
should be at the top of every Member of Congress' priority 
list.
    Today's hearing is another chance to discuss a type of 
extreme weather event and how we are preparing to lessen the 
damage and effects it causes.
    Flood events occur in every state and territory and cause 
an average of 80 deaths per year. It's easy to see how coastal 
areas like Florida or New Jersey are susceptible, but these 
events also have a great impact on agriculture, food supply, 
and crop insurance for inland states like Kansas.
    In 2019, Kansas saw one of the worst years of extensive 
flooding with at least $15 million of infrastructure damage and 
$3.8 million in federal flood insurance claims. It's impossible 
to gauge just how much damage this has caused on topsoil loss, 
land realignment, and other factors that affect the day to day 
life of the agriculture community.
    What we do know is that 13 dams were damaged and well 
systems were overwhelmed so much that trucks are still 
delivering up to 40,000 gallons of clean water every day to 
northeast Kansas.
    But as the saying goes: from challenge comes opportunity. 
The Kansas Department of Agriculture, already underway with a 
project to map the state's floodplains with 2D technology, has 
used the 2019 floods has a way of validating their models and 
gaining trust among communities.
    They have also spread more awareness of the state's Base 
Flood Elevation Portal, a collaborative project that allows 
users to draw a polygon for their property and see BFE value, 
as well as the approximate lowest adjacent grade value based on 
LiDAR.
    This type of tool is extremely helpful because it gives 
property owners an idea of their chances to obtain a Letter of 
Map Revision before they spend money on a surveyor.
    I look forward to hearing Mr. Ryan Branfort's testimony on 
how similar technologies and services, along with geospatial 
data, can help improve the flood mapping of FEMA and other 
federal agencies.
    I also look forward to hearing from all of our witness on 
the progress of the USGS 3-D Elevation Program, or 3DEP, as it 
moves forward with the goal of completing a nationwide LiDAR 
mapping by 2023. 67% of the nation has been completed and more 
than 600 different applications will benefit from this enhance 
elevation data, including flood risk management and precision 
agriculture.
    The idea that a federal program can satisfy multiple needs 
and be used in so many different ways is what every program 
should strive to achieve. If we are going to spend millions of 
taxpayer dollars in a multi-year coordinated effort, I hope the 
final result is not a simple one trick pony.
    I want to again thank our witnesses for being here and I 
look forward to hearing your testimony. Thank you Madam Chair 
and I yield back the balance of my time.

     Chairwoman Sherrill. Thank you. The Chair now recognizes 
the Chair of the Subcommittee on Investigations and Oversight, 
Dr. Foster, for an opening statement.
     Mr. Foster. Thank you, Chairwoman Sherrill. The nuts and 
bolts of the National Flood Insurance Program are something 
that we've spent countless hours on in the Financial Services 
Committee, the other hat I wear around here. You know, there 
are a lot of factors that go into the insurance side of the 
program that we won't get into today, but I'm very glad that 
the Science Committee is taking a look at the whole Federal 
enterprise of flood prediction and decision support tools. This 
is one of those policy topics where the scientific inputs and 
outputs have a direct impact on the daily lives of millions of 
Americans. If we don't prioritize accuracy, precision, and 
granularity in the mapping and forecasting of flood hazards, 
and make the investments necessary to get the data to make 
those predictions accurate, then insurance requirements that we 
apply on American businesses and homeowners will never be fair.
     And the changing climate adds an uncontrollable variable 
into the quest for quality maps. The National Flood Insurance 
Act became law in 1968. Back then, anthropogenic climate change 
was not really a part of the public discourse, and Federal 
policymakers saw the global climate as static. It made sense to 
create a program that would evaluate risk and designate 
premiums on a, you know, simple 1-year annual outlook because 
it was believed that the climate in 2020 would look more or 
less like that of 1968. But now we know better. Global 
concentrations of carbon dioxide in the air have risen from 320 
to 400--to over 400 parts per million. And setting aside the 
influence of methane and the other greenhouse gases, which are 
roughly 30 percent of the other heat-trapping gases in the 
atmosphere--yields a situation where global temperatures have 
already gone up about 1.4 degrees Fahrenheit since 1968. And 
the incidence of--and severity of flooding has increased as a 
result, and by no means are flood risks limited to coastal 
zones.
     Extreme rainfall events are driving record river overflows 
and urban flooding throughout the Midwest. Last May Illinois 
Governor Pritzker had to activate the Illinois National Guard 
to address the historic flood conditions. Illinois farmers saw 
so much hardship that, as a result, the USDA (United States 
Department of Agriculture) issued an agricultural disaster 
declaration. And it's not just homes, businesses, and farms 
that are being affected. Last week I visited Strategic Air 
Command and Offutt Air Force Base, which flooded badly last 
spring, and the cleanup there is estimated to cost almost $1 
billion dollars.
     We can't ignore the fact that climate change is here 
today. It's affecting our homes and our livelihoods, and the 
Federal Government needs to deploy new tools to address it. So 
I look forward to the hearing today about the opportunities to 
use the most advanced technologies and models to evaluate 
present day flood risk so we get an answer that's more accurate 
and more detailed than the status quo. You know, there are 
advancements in LIDAR, lower cost flood sensors, drones, 
artificial intelligence, algorithms can all help FEMA--make the 
FEMA map more accurate, and perhaps lower the cost of producing 
it. Perhaps there are also ways to leverage new applications 
for flood evaluation and prediction using the existing network 
of earth monitoring satellites and supercomputers, such as 
Aurora, which is being built in my district at Argonne National 
Lab.
     The hydrology and climate data products put out by Mr. 
Osler's team at NOAA are first-rate, but maybe there are more 
effective ways to leverage those and improve those resources. 
Yes, there'll be tough questions anytime FEMA makes changes to 
their methods that affect the rates that people pay under the 
National Flood Insurance Program, and we're not going to 
resolve all those issues today, but I think we can all agree 
that a sophisticated scientific foundation is the best place to 
start.
     And I also want to thank--to think about the art of the 
possible for providing forward-looking decision support tools 
that will help property buyers understand their flood risk over 
the life of a 30-year mortgage. FEMA's flood maps are an 
insurance product that aren't really designed to show future 
conditions. We need to acknowledge that people may be counting 
on FEMA's maps for things that they weren't meant for. And we 
need to acknowledge that homebuyers want to make informed 
decisions about future flood risks when they take on a 
mortgage, and also that most homebuyers can't afford to pay for 
a fancy private mapping firm in order to do that.
     Thank you to all of our witnesses for making time today, 
and I look forward to a productive conversation. I yield back.
     [The prepared statement of Mr. Foster follows:]

    Thank you, Chairwoman Sherrill.
    The nuts and bolts of the National Flood Insurance Program 
are something I've spent a lot of time on in the Financial 
Services Committee. There are a lot of factors that go into the 
insurance side of the program that we won't get into today. But 
I'm glad the Science Committee is taking a look at the whole 
federal enterprise of flood prediction and decision support 
tools. This is one of those policy topics where the scientific 
inputs have a direct impact on the daily lives of millions of 
Americans. If we don't prioritize accuracy, precision and 
granularity in mapping and forecasting flood hazards, the 
insurance requirements we apply to American businesses and 
homeowners will never be fair.
    And the changing climate throws a curveball into the quest 
for quality maps. The National Flood Insurance Act became law 
in 1968. Back then, anthropogenic climate change was not yet a 
part of the public discourse and federal policymakers saw the 
global climate as static. It made sense to create a program 
that would evaluate risk and designate premiums on a simple 
one-year annual outlook, because it was believed that the 
climate in 2020 would look more or less like 1968.
    But now we know better. Global concentrations of carbon 
dioxide in the air in 1968 were 320 parts per million. Today we 
are at 413. Setting aside the influence of methane and other 
greenhouse gases--that's 30% more heat-trapping gases in the 
atmosphere. Global average temperatures have gone up by 1.4 
degrees Fahrenheit since 1968. The incidence and severity of 
flooding has increased as a result, and by no means are flood 
risks limited to coastal zones.
    Extreme rainfall events are driving record river overflows 
and urban flooding in the Midwest. Last May, Governor Pritzker 
had to activate the Illinois National Guard to address the 
historic flood conditions. Illinois farmers saw so much 
hardship as a result that USDA issued an agricultural disaster 
declaration. My hometown of Naperville saw the DuPage River 
overflow and swallow parts of the riverwalk. And it's not just 
homes and businesses that are being affected--just last week I 
visited Offutt Airforce Base which flooded last spring and the 
cleanup is estimated cost almost one billion dollars.
    We can't ignore the fact that climate change is here today, 
it is affecting our homes and our livelihoods, and the federal 
government needs to deploy new tools to address it.
    I look forward to hearing today about the opportunities to 
use more advanced technologies and models to evaluate present-
day flood risk that is more accurate and more detailed than the 
status quo. Advancements in LIDAR, lower cost flood sensors, 
drones, and artificial intelligence can all help FEMA map more 
acreage more effectively, and perhaps at a lower cost. Perhaps 
there are ways to leverage new applications for flood 
evaluation and prediction using the existing network of earth 
monitoring satellites and supercomputers like Aurora, which is 
being built at Argonne National Lab as we speak. The hydrology 
and climate data products put out by Mr. Osler's team and NOAA 
are first-rate, and maybe there are more effective ways to 
leverage those resources. Yes, there will tough questions 
anytime FEMA makes changes in their methods that affect the 
rates that people pay under the National Flood Insurance 
Program. We can't resolve all those issues today, but I think 
we can all agree that a sophisticated scientific foundation is 
the best place to start.
    I also want to think about the art of the possible for 
providing forward-looking decision support tools that will help 
property buyers understand their flood risk over the life of a 
30-year mortgage. FEMA's flood maps are an insurance product 
that aren't designed to show future conditions. We need to 
acknowledge that people may be counting on FEMA's maps for 
things they weren't meant for. We need to acknowledge that 
homebuyers want to make informed decisions about future flood 
risks when they take on a mortgage--and also that most 
homebuyers can't afford to pay a fancy private mapping firm in 
order to do that.
    Thank you to our witnesses for making the time today and I 
look forward to a productive conversation. I yield back.

     Chairwoman Sherrill. Thank you. The Chair now recognizes 
the Ranking Member for the Subcommittee on Investigations and 
Oversight, Mr. Norman, for an opening statement.
     Mr. Norman. I want to thank all the witnesses, thank you, 
Chairwoman Sherrill and Chairman Foster for having this 
meeting. This is near and dear to my heart. I'm a real estate 
developer who has developed property dealing with flood maps 
residentially, commercially. Also dealt with it on the wetland 
credits, with regulations that are out of the roof that seven 
years, generally, to deal with the Corps, which hopefully we 
can make some suggestions and improvements.
     But we're here today to discuss how flooding impacts 
property owners, and the ways that flood hazards and risks are 
communicated to the public, which is a big part of it. We will 
examine the science and data that FEMA and NOAA leverage to 
generate and distribute Federal flood products, the steps being 
taken to incorporate future flood hazards into these products, 
and the tools and technologies that exist to help property 
owners, coastal managers, and community stakeholders better 
understand and evaluate their flood risk.
     Flooding is both the most common and most costly natural 
disaster in the United States. Floods have caused more than 
$155 billion in property damage over the last 10 years, and 
nearly 4,000 deaths since 1950. Roughly 75 percent of all 
Presidential disaster declarations are related in some manner 
to flooding. In my home State of South Carolina, flooding is an 
even greater concern. A significant percentage of all South 
Carolina lands fall within floodplains designated as special 
flood hazard areas by FEMA. And although it ranks 23rd in total 
population, South Carolina is ranked seventh among all States 
in coastal flooding vulnerability, with roughly 400,000 people 
at risk of inland and coastal flooding throughout our State.
     Addressing our Nation's flood risks requires buy-in from 
Federal, State, local, and community stakeholders, not red tape 
and useless bureaucracy. Recognizing this, in 2018 Governor 
McMaster established the South Carolina Floodwater Commission 
to develop recommendations to alleviate and mitigate flood 
impacts to the State. Under the leadership of its Chairman, 
Retired Major General Tom Mullikin, this commission, unique for 
our State, took a realistic and a hands-on approach to mitigate 
flooding in our State. The recommendations offered by this 
extraordinary committee are the cornerstone of my home State's 
fight against extreme weather events. In recognition of their 
achievement, I offer to submit their report for the 
Congressional Record as an example to be admired and followed 
nationally.
     Yet in spite of these valiant efforts I recognize that 
South Carolina alone cannot solve our Nation's flooding 
challenges. That's why I'm pleased to see that FEMA, NOAA, and 
the USGS are making positive strides in confronting this issue. 
They're working collaboratively to improve our understanding of 
flood hazards and risks, and how best to communicate these 
risks to State and local communities, and also the general 
public, which needs to be informed. I encourage them to 
continue to improve and expand their inter-agency coordination 
to ensure that Federal flood products are accurate, reliable, 
and comprehensible to the communities, like those in South 
Carolina, who rely on them for planning, zoning, and land use 
management.
     Preparedness is critical to combatting the challenges that 
flooding presents, but proper preparation means taking steps 
now to improve our resilience to flood hazards and mitigate 
present and future flood risks. I look forward to learning more 
today about what FEMA and NOAA are doing to improve Federal 
flood mapping, and how they are leveraging modern technology to 
gain a more accurate and granular understanding of flood risks 
and hazards in South Carolina and throughout our Nation.
     Flooding events presents a great challenge, but through 
collaboration and coordination between all levels of 
government, community stakeholders, and private sector experts, 
it's a challenge that we can overcome, and we can be 
successful. I again want to thank the witnesses for taking the 
time to be here today. Thank you, Chairwoman Sherrill, and I 
yield back
     [The prepared statement of Mr. Norman follows:]

    Thank you, Chairwoman Sherrill and Chairman Foster, for 
convening this hearing, and thank you to the witnesses for your 
testimony this afternoon.
    We are here today to discuss how flooding impacts property 
owners and the ways that flood risks and hazards are 
communicated to the public. We will examine the science and 
data that FEMA and NOAA leverage to generate and distribute 
Federal flood products, the steps being taken to incorporate 
future flood hazards into these products, and the tools and 
technologies that exist to help property owners, coastal 
managers, and community stakeholders better understand and 
evaluate their flood risk.
    Flooding is both the most common and most costly natural 
disaster in the United States. Floods have caused more than 
$155 billion in property damage over the last ten years and 
nearly 4,000 deaths since 1950. Roughly 75% of all presidential 
disaster declarations are related to flooding.
    In my home state of South Carolina, flooding is an even 
greater concern. A significant percentage of all South Carolina 
lands fall within floodplains designated as ``Special Flood 
Hazard Areas'' by FEMA. And although it ranks 23rd in total 
population, South Carolina is ranked seventh among all states 
in coastal flooding vulnerability, with roughly 400,000 people 
at risk of inland and coastal flooding throughout the state.
    Addressing our nation's flood risks requires buy-in from 
Federal, state, local, and community stakeholders, not red tape 
and useless bureaucracy. Recognizing this, in 2018, Governor 
McMaster established the South Carolina Floodwater Commission 
to develop recommendations to alleviate and mitigate flood 
impacts to the state.
    Under the leadership of its Chairman, Retired Major General 
Tom Mullikin, this Commission, unique to our state, took a 
realistic and hands-on approach to mitigate flooding in our 
State. The recommendations offered by this extraordinary 
Committee are the cornerstone of my home state's fight against 
extreme weather events.
    In recognition of their achievement, I offer to submit 
their report for the congressional record as an example to be 
admired and followed nationally. Yet in spite of these valiant 
efforts I recognize that South Carolina alone cannot solve our 
national flooding challenges.
    That's why I'm pleased to see that FEMA, NOAA, and the USGS 
are making positive strides in confronting this issue. They are 
working collaboratively to improve our understanding of flood 
hazards and risks, and how best to communicate these risks to 
state and local communities, and the general public. I 
encourage them to continue to improve and expand their 
interagency coordination to ensure that Federal flood products 
are accurate, reliable, and comprehensible to the communities, 
like those in South Carolina, who rely on them for planning, 
zoning, and land use management.
    Preparedness is critical to combatting the challenges that 
flooding presents. But proper preparation means taking steps 
now to improve our resilience to flood hazards and to mitigate 
present and future flood risks.
    I look forward to learning more today about what FEMA and 
NOAA are doing to improve Federal flood mapping, and how they 
are leveraging modern technology to gain a more accurate and 
granular understanding of flood risks and hazards in South 
Carolina and throughout our Nation.
    Flooding events present a great challenge. But through 
collaboration and coordination between all levels of 
government, community stakeholders, and private sector experts, 
it is a challenge that we can overcome.
    I again want to thank the witnesses for being here today. I 
look forward to your testimony.
    Thank you, Chairwoman Sherrill. I yield back the balance of 
my time.

     Chairwoman Sherrill. Thank you. We are honored to have the 
full Committee Chairwoman, Ms. Johnson, here with us today. The 
Chair now recognizes the Chairwoman for an opening statement.
     Chairwoman Johnson. Thank you very much, and good 
afternoon. The FEMA flood mapping process is not a topic this 
Committee has explored very deeply in the past. Our friends in 
the Financial Services Committee work hard to look after the 
authorizations and policy changes that the program needs, and 
they stay very busy doing it. But, as with so many Federal 
programs, there is an opportunity here for the Science, Space, 
and Technology Committee to make sure innovative technologies 
and cutting-edge strategies for analysts are being put to work 
for the good of the taxpayer. When we leverage the best 
available science, we can help make government programs perform 
better, deliver services quicker, and save money.
     In the case of dealing with flooding, this country may 
need all the help it can get. By all objective measures, the 
severity and frequency of flooding is on a significant upward 
trend. The National Flood Insurance Program reached its maximum 
authority to borrow money in order to cover ratepayers' claims 
in September of 2017, and, for the first time, the Treasury 
canceled a $16 billion debt. This happened in just time--just 
in time for the Hurricanes Harvey, Irma, and Maria, which 
delivered unprecedented damages in Texas, Florida and Puerto 
Rico, as well as several neighboring States. FEMA had to borrow 
another $6.1 billion in order to address the heavy losses from 
these disasters. I will note that these communities are still 
healing from the 2017 hurricane season today. Even the best 
insurance can't fix the physical and emotional devastation 
caused by a flood that takes your home or your business.
     It is time to think creatively about how to help get 
better technologies for flood mapping, evaluation, and 
prediction into the marketplace. FEMA is working on a process 
called Risk Rating 2.0 that will incorporate new data points, 
modeling strategies, and enhanced granularity in order to 
provide a more accurate picture of flood risk. It would be 
beneficial if the process would also allow FEMA and its 
contracting partners to update its maps in a more timely 
fashion. FEMA will need to talk to Congress if it needs support 
or resources to make Risk Rating 2.0 a success. It's always 
worth asking the question of what research and development 
capabilities are available to an agency when it embarks upon an 
ambitious project like Risk Rating 2.0. I hope that the Science 
and Technology Directorate at the Department of Homeland 
Security is playing a role in this process.
     The resources we have at other agencies like the National 
Oceanic and Atmospheric Administration, or NOAA, also need to 
be deployed to their greatest potential. NOAA's capabilities 
for Earth observation and predictive modeling along coastlines 
are unparalleled. NASA (National Aeronautics and Space 
Administration) Earth Sciences and the U.S. Geological Survey 
have observational capabilities that we want to make sure are 
in that mix as well. As climate change continues to move the 
goalposts for flood risk, we need to make sure that all Federal 
science agencies are coordinating closely in order to deliver 
information to taxpayers that can help them make sound 
decisions and keep themselves and their families safe.
     Texas has--had a bad year for flooding in 2017. I know 
Oklahoma had a tough year with flooding in 2019. Ranking Member 
Lucas and I both understand that no region in the country is 
immune to flood risk, and that an ounce of prevention is worth 
a pound of cure. I look forward to working with the Members of 
both sides of the aisle, and with the administration, on 
strategies to leverage all our scientific capabilities to 
address the challenges associated with increased flooding.
     I want to say as an aside, early last year I had a meeting 
of my entire COG area, the Council Of Governments area, in 
North Texas, which is generally thought of as an inland area, 
which included FEMA and all the other agencies at every level 
of government, and we all decided we would work together to 
prevent, because prevention is so much better than having to 
pay for it afterwards. So I hope we will continue that, and 
thank you, and I yield back.
     [The prepared statement of Chairwoman Johnson follows:]

    Good afternoon and thanks to all our witnesses for being 
here. The FEMA flood mapping process is not a topic this 
Committee has explored very deeply in the past. Our friends in 
the Financial Services Committee work hard to look after the 
authorizations and policy changes that program needs, and they 
stay very busy doing that.
    But as with so many federal programs, there is an 
opportunity here for the Science, Space, and Technology 
Committee to make sure innovative technologies and cutting-edge 
strategies for analysis are being put to work for the good of 
the taxpayer. When we leverage the best available science, we 
can help make government programs perform better, deliver 
services quickly, and save money.
    In the case of dealing with flooding, this country may need 
all the help it can get. By all objective measures, the 
severity and frequency of flooding is on a significant upward 
trend. The National Flood Insurance Program reached its maximum 
authority to borrow money in order to cover ratepayer claims in 
September of 2017 and for the first time, the Treasury 
cancelled $16 billion of debt. This happened just in time for 
Hurricanes Harvey, Irma, and Maria, which delivered 
unprecedented damages in Texas, Florida and Puerto Rico, as 
well as several neighboring states. FEMA had to borrow another 
$6.1 billion in order to address the heavy losses from these 
disasters. I will note that these communities are still healing 
from the 2017 hurricane season today--even the best insurance 
can't fix the physical and emotional devastation caused by a 
flood that takes your home or your business.
    It is time to think creatively about how to help get better 
technologies for flood mapping, evaluation and prediction into 
the marketplace. FEMA is working on a process called Risk 
Rating 2.0 that will incorporate new data points, modeling 
strategies and enhanced granularity in order to provide a more 
accurate picture of flood risk. It would be beneficial if this 
process would also allow FEMA and its contracting partners to 
update its maps in a more timely fashion.
    FEMA will need to talk to Congress if it needs support or 
resources to make Risk Rating 2.0 a success. It's always worth 
asking the question of what research and development 
capabilities are available to an agency when it embarks upon an 
ambitious project like Risk Rating 2.0. I hopethat the Science 
& Technology Directorate at the Department of Homeland Security 
(DHS) is playing a role in the process.
    The resources we have at other agencies like the National 
Oceanic and Atmospheric Administration (NOAA) also need to be 
deployed to their greatest potential. NOAA's capabilities for 
earth observation and predictive modeling along coastlines are 
unparalleled. NASA Earth Sciences and the U.S. Geological 
Survey have observational capabilities that we want to make 
sure are in the mix as well. As climate change continues to 
move the goalposts for flood risk, we need to make sure that 
all federal science agencies are coordinating closely in order 
to deliver information to taxpayers that can help them make 
sound decisions--and keep themselves and their families safe.
    Texas had a bad year for flooding in 2017. I know Oklahoma 
had a tough year with flooding in 2019. Ranking Member Lucas 
and I both understand that no region of the country is immune 
to flood risk--and that an ounce of prevention is worth a pound 
of cure. I look forward to working with Members on both sides 
of the aisle and with the Administration on strategies to 
leverage all our scientific capabilities to address the 
challenges associated with increased flooding.
    I yield back

     Chairwoman Sherrill. Thank you, Madam Chair. At this time 
Dr.--if there are any Members who wish to submit additional 
opening statements, your statements will be added to the record 
at this point. And at this time I'd like to introduce our 
witnesses. First I'll turn it over to Dr. Marshall, who will 
introduce his witness, Mr. Branfort.
     Mr. Marshall. All right. Thank you again, Chairwoman 
Sherrill. It's an honor and a privilege to welcome a 
constituent of mine as a witness today. Mr. Ryan Branfort is a 
Senior Vice President at Wilson and Company, Incorporated, 
Engineers and Architects, where he manages the Surveying, 
Mapping, and GIS (Geographic Information System) Division. More 
importantly, though, he is a Kansas State University graduate.
     With a staff of nearly 100 individuals, his division 
performs work for a variety of Federal, State, municipal, and 
private entities. He's held nearly every type of position in 
the Surveying and Mapping Division, including field surveyor, 
party chief, CAD (Computer Aided Design) technician, GIS 
specialist, photogrammetrist, that's a new one, and various 
supervisory positions, giving him a well-rounded background in 
the field. He's spent the last 15 years as part of the 
company's executive leadership team, and served six years on 
Wilson and Company's Board of Directors.
     Wilson and Company itself has nearly 500 employees in 15 
offices across nine States, but I'd also like to point out that 
Mr. Branfort is based in the Salina office, which is less than 
a five minute drive from my district office, so it's nice to 
have a constituent and a workplace neighbor here in D.C. Thank 
you, Mr. Branfort, for making the trip up here, and taking the 
time to testify. With that, I yield back, Madam Chair.
     Chairwoman Sherrill. Thank you, and thank you, Mr. 
Branfort.
     Next we have Mr. Michael Grimm, who serves as the 
Assistant Administrator for Risk Management at the Federal 
Insurance and Mitigation Administration within FEMA. Under Mr. 
Grimm's direction, the Risk Management Directorate produces 
data, modeling, and programs that inform the public of national 
disaster risk. The Risk Management Directorate manages the risk 
mapping, analysis, and planning, a risk map program, within the 
National Flood Insurance Program, as well as other programs 
that prioritize Federal investments and resilience projects, 
and help to implement standards. Mr. Grimm has previously 
directed both FEMA's disaster mitigation programs and its 
Individual Assistance Division.
     Prior to joining FEMA, Mr. Grimm worked in several other 
governmental positions, including with the city of Fort 
Collins, Colorado, the State of Wyoming, and the United States 
Geological Survey National Research Program. He holds a Master 
of Science in Earth Resources from Colorado State University. 
That's a little far afield from my home State of New Jersey, 
but welcome.
     Next we have Mr. Mark Osler, who serves as Senior Advisor 
for Coastal Inundation and Resilience at the National Oceanic 
and Atmospheric Administration, NOAA. Mr. Osler works to 
coordinate and advance coastal flood science at NOAA, and 
improve decisionmakers' ability to prepare for and respond to 
ongoing changes affecting coastal communities. He also advises 
NOAA leadership on coastal research, applied science, and 
policy strategy. He's focused on improving inter-agency 
coordination and strengthening partnerships with non-Federal 
organizations. Prior to joining NOAA, Mr. Osler worked in the 
private sector for 17 years. He received a Master's Degree in 
Coastal Engineering from the University of Delaware, and we're 
happy to have you here today.
     Our final witness is Mr. Chad Berginnis. Mr. Berginnis has 
served the Executive Director for the Association of State 
Floodplain Managers (ASFPM) since 2012. Prior to this, he 
served in several other roles at ASFPM in--and in floodplain 
management at the State and local level in Ohio. He has also 
worked in private sector hazard mitigation. In all, he has been 
working in floodplain management for nearly 30 years. As 
executive director for AFS--ASFPM, Mr. Berginnis works with 
Federal agencies and Congress to advocate for policies dealing 
with flood risk, water management, and natural disaster 
resilience. He also develops tools for local decisionmakers, 
and works with professional associations, ASFPM chapters, and 
private sector partners. Mr. Berginnis holds a Bachelor of 
Science in Natural Resources from Ohio State University, and is 
a certified floodplain manager. Thank you all for being here 
today.
     As our witnesses should know, you will each have 5 minutes 
for your oral testimony. Your written testimony will be 
included in the record for the hearing. When you all have 
completed your spoken testimony, we'll begin with questions. 
Each Member will have 5 minutes to question the panel, and I 
ask your help in--as you see you're getting closer to your 5 
minutes, starting to wrap up your answer so everyone has 
opportunities. And so we will start today with Mr. Grimm.

                 TESTIMONY OF MR. MICHAEL GRIMM,

          ASSISTANT ADMINISTRATOR FOR RISK MANAGEMENT,

        FEDERAL INSURANCE AND MITIGATION ADMINISTRATION,

              FEDERAL EMERGENCY MANAGEMENT AGENCY,

              U.S. DEPARTMENT OF HOMELAND SECURITY

     Mr. Grimm. Good afternoon, Chairman Foster, and Chairwoman 
Sherrill, Chairwoman Johnson, Ranking Members Norman and 
Marshall, and Members of the Committee. My name is Michael 
Grimm, and I'm the Assistant Administrator for Risk Management 
for the Federal Insurance and Mitigation Administration. Thank 
you for the opportunity to testify today about the flood 
insurance rate maps (FIRMs), and the steps FEMA is taking to 
help communities better understand the hazards posed by 
catastrophic flooding. As millions of American families have 
unfortunately experienced firsthand, flooding is the most 
common and costly natural disaster in the United States. Over 
the past 10 years, floods alone have caused over $155 billion 
in property damage. 98 percent of counties have experienced a 
flooding event.
     The most prevalent cartographic tool used to help 
communities understand their flooding risks are the flood 
insurance rate maps, or flood maps, and they provide the 
backbone of effective floodplain management. Flood maps are 
used for a variety of purposes. While most often associated 
with determining flood insurance premiums in the National Flood 
Insurance Program, flood maps also play a fundamental role in 
establishing land use, zoning, and building standards. Flood 
maps help communities ensure that development and 
infrastructure are constructed to protect lives and property. 
The local adoption of minimum NFIP standards has resulted in 
$100 billion in losses avoided over the past 40 years.
     Since the inception of the NFIP in 1969, our Nation has 
invested approximately $10.6 billion in inflation-adjusted 
dollars for flood mapping. Although the type of data needed to 
create dependable flood maps has remained relatively consistent 
over the past 50 years, the tools and technology used to gather 
and share this information has changed substantially. For 
instance, paper-based flood maps have become digitally 
accessible to millions of Americans, and the traditional 
surveying methodologies have been replaced with more accurate 
and cost-saving techniques. One example is LIDAR technology, 
which has allowed FEMA and its partners, such as NOAA, to map 
flood hazard zones with increased efficiency and accuracy by 
measuring landscapes with laser-based surveying methodologies 
from aircraft.
     The modernization of techniques has made digital flood 
maps more adaptable and easier to update. As conditions change, 
flood maps require maintenance. With current resources, FEMA is 
able to validate 20 percent of our inventory annually to ensure 
that maps meet current standards. Working with States and 
communities, we must prioritize which maps should be updated in 
accordance with the highest risk or need, and then work with 
our partners to begin the cyclical process anew.
     While maintaining current flood maps is critical, we're 
still far from completing the initial job of mapping the entire 
nation. FEMA and State and local partners have historically 
prioritized limited mapping resources for areas with the 
greatest population levels and flood insurance policies on the 
assumption that these places represent the highest risk. While 
this approach has produced accurate and detailed maps in 
counties and communities with higher population levels, the 
unfortunate consequence is that many areas with potential for 
future development remain unmapped.
     Despite the progress we've made in modernizing the flood 
mapping process, there's still ample opportunity for continuous 
improvement. One of the most notable opportunities concerns the 
timeline for production of new flood maps. Although due process 
and careful deliberation is vital to ensure both the map's 
accuracy and buy-in of local partners, the extent of procedures 
necessary to comply with current law can result in a situation 
in which new maps have technically expired by the time they're 
approved and publicly available. The development of a new flood 
map takes 7 years on average to complete. That juxtaposes 
present statutes, which require FEMA to re-assess flood maps 
every 5 years in order to qualify as current.
     Another data concern often raised regarding current flood 
maps is lack of consideration about future conditions and sea 
level rise. These are important factors for a variety of 
reasons, as exemplified by the acceleration of daily tidal 
flooding in more than 25 Atlantic and Gulf Coast cities. While 
maps do not currently reflect the ways in which flood risks may 
change in the future, FEMA strongly encourages communities to 
incorporate anticipated future conditions into their projects 
and planning. For example, FEMA is actively coordinating with 
New York City through FEMA's Cooperating Technical Partners 
Program to pilot non-regulatory flood products that address 
future flooding scenarios. The intent is to ensure that today's 
designs address tomorrow's risks by integrating future sea 
level rise data into building code requirements and floodplain 
management.
     Improving the production of flood maps within the context 
of changing conditions and expanding nationwide flood insurance 
coverage is a strategic priority of FEMA. Through an initiative 
known as the Future of Flood Risk Data, FEMA aims to provide a 
comprehensive picture of the country's flood hazards through a 
graduated risk analysis. The more--this more holistic 
understanding of present and future risk can serve as a basis 
for a range of both regulatory and non-regulatory products. 
Presently flood insurance rate maps are a binary representation 
of a single flood hazard, the 1 percent chance annual flood. As 
a result, FIRMs can give a false impression to communities 
outside the of the special flood hazard area that they have 
little or no flood risk. Graduated risk analysis could more 
effectively inform decisionmaking and drive action.
     FEMA looks forward to closely coordinating with our 
congressional and Federal partners to improve this process, and 
thank you for the opportunity to testify and discuss this 
important aspect of our mission.
     [The prepared statement of Mr. Grimm follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
     Chairwoman Sherrill. Thank you so much. And I have to 
apologize, I will be leaving shortly, the vote schedule upended 
my day a little bit. Fortunately, this is, as I mentioned, a 
very critical issue for my district, so I have two of my 
district directors here. I have Kellie Doucette and Jill 
Hirsch, and I look forward to hearing about your testimony and 
reviewing it afterwards. Thank you again.
     Next we have Mr. Osler.

           TESTIMONY OF MR. MARK OSLER, SENIOR ADVISOR

             FOR COASTAL INUNDATION AND RESILIENCE,

        NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION,

                  U.S. DEPARTMENT OF COMMERCE

     Mr. Osler. Good afternoon, Chairwoman Sherrill, Chairman 
Foster, Ranking Member Marshall, Ranking Member Norman, and 
Members of the Subcommittees. Thank you for inviting me to 
testify. Part of NOAA's core mission is to protect lives and 
property, and enhance the national economy. We do this by 
providing environmental information and predictions to the 
public. From real time observations, to daily weather and water 
forecasts and warnings, to climate monitoring, and sea level 
rise analysis, NOAA's products and services provide vital 
information to the public. These insights are underpinned by 
cutting edge research, collaborative external partnerships, and 
thousands of dedicated scientists across the Nation. To carry 
out our important mission in a changing world, NOAA has 
recently launched strategies to optimize our use of unmanned 
systems, artificial intelligence, and cloud computing to ensure 
that our work remains at the forefront of innovation.
     Our Nation has a special challenge along our coasts. Our 
coasts are economic drivers. Coastal counties produce more than 
$8 trillion of goods and services annually, and employ 56 
million Americans. If our coastal counties were combined to be 
an individual nation, it would rank third in the world in GDP 
(Gross Domestic Product). This economic engine along our coasts 
is increasingly at risk. Water levels are rising. We observe 
more frequent flooding during high tides, even in the absence 
of storms, Great Lakes water levels are at record heights, and 
increased development along our coasts mean the impact of 
coastal hazards are more costly than ever.
     NOAA is at the forefront in the national response to these 
challenges. We deliver an array of water level and mapping 
services, which include NOAA's comprehensive inland flood 
watches and warnings, together with real time hurricane surge 
forecasts and warnings, which provide a comprehensive picture 
of flooding and real time impacts, which enable life saving 
evacuation decisions. NOAA also supports coastal decisionmakers 
through platforms like Digital Coast, which include our sea 
level rise viewer, empowering communities to incorporate future 
risk within their long-range planning and capital improvement 
investments.
     And all of these products and services themselves are 
built on underlying data which NOAA produces to determine where 
the land and water are in relation to one another, and how they 
are changing over time. NOAA builds and maintains the National 
Spatial Reference System, which defines latitude and longitude 
and elevation for the Nation. We're currently hard at work 
modernizing this system to improve measurement accuracy. NOAA 
also maintains our Nation's long-term network of tide stations. 
These stations provide tidal datums, historic water levels, and 
track rising sea levels.
     In order to deliver our mission, NOAA works with and 
supports many agencies, including FEMA. For example, NOAA 
actively participates in the Federal Inter-Agency Floodplain 
Management Task Force, FEMA's community rating system task 
force, and provides experts to participate in FEMA's Technical 
Mapping Advisory Council (TMAC). NOAA's working together with 
the U.S. Geological Survey, the Army Corp of Engineers, and 
FEMA to provide integrated real time and forecast flood 
inundation maps along our Nation's streams and rivers, and 
during natural disasters NOAA has pre-scripted mission 
assignments in place which enable FEMA to request NOAA's 
support with emergency weather forecasting, aerial and 
underwater surveys that are used to identify hazards, and 
accelerate response and recovery.
     There's a lot of talk these days about resilience, the 
ability to anticipate, adapt, withstand, and evolve from any 
disruption. The science involved in predicting and mapping 
environmental information is complex. We must continue to 
support the research and observations which enable these tasks. 
However, we must also respect the fact that even the best 
science and mapping will not increase safety and reduce 
economic loss without a clear understanding of how the public 
understands risk. Local decisionmakers must be supported in 
discovering for themselves how the relevant science relates to 
their local priorities and values to their culture, to their 
history, and to the future they wish to forge for themselves.
     NOAA is proud to join together with FEMA and myriad 
partners in and outside of government to enhance our scientific 
understanding and participate in this shared engagement with 
the public about the risks that we face today and in the 
future. Thank you for the opportunity to be in dialog together 
today. I look forward to answering your questions.
     [The prepared statement of Mr. Osler follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
     Ms. Bonamici [presiding]. Thank you for your testimony. I 
now recognize Mr. Branfort for 5 minutes for your testimony.

           TESTIMONY OF MR. RYAN BRANFORT, PLS, GISP,

        SENIOR VICE PRESIDENT, WILSON AND COMPANY, INC.,

                    ENGINEERS AND ARCHITECTS

     Mr. Branfort. Thank you, Chairwoman Sherrill, Chairmen 
Foster and Norman, and especially to Dr. Marshall, for this 
opportunity. I am a licensed surveyor, practicing 
photogrammetrist, and GIS professional, and I'm honored to 
present my piece on how GIS spatial data technology and 
services can improve FEMA flood mapping and better serve the 
American people.
     Our changing, evolving climate, sea level rise, 
subsidence, and other natural phenomena affects flooding and 
impacts American property owners, taxpayers, and FEMA, as the 
custodian of the National Flood Insurance Program. As a Kansan, 
I can tell you these phenomena also affect American 
agriculture, crop insurance, and our food supply. America is 
blessed with a vibrant, capable, and qualified private sector 
geospatial community that provides an extraordinary array of 
data technology and services that contribute to our quality of 
life. I'd like to share with you today some thoughts on how 
these technologies can be used to predict future flood rather--
future flood mapping, rather than mapping past flood results. 
This would significantly save lives, protect property, improve 
building practices, and save tax dollars.
     I've got a few slides here that show some of the 
technologies and examples of state-of-the-art geospatial 
technologies that are available to assist FEMA. Now, this first 
slide is several examples of--you've heard talk about LIDAR, 
which is Light Detection and Ranging. There's elevation data 
collected with a new laser system. Next slide, please. Oops, I 
can turn it here. The USGS 3DEP Elevation Program, or 3DEP, is 
satisfying the growing demand for consistent, high quality 
topographic data and other three-dimensional representations of 
natural and constructed features, primarily using LIDAR. Among 
the leading applications that benefit from 3DEP is flood risk 
management.
     While FEMA has been the leading contributor to 3DEP, apart 
from USGS itself, the program is not coming close to the $146 
million per year that is needed to complete the mapping of the 
project and implement an 8-year update cycle. As my second 
slide slows--shows here, about 67 percent of the Nation has 
been mapped under 3DEP, but many areas still need elevation 
data. Before the 3DEP implementation, the average elevation 
data for the Nation was 30 years old. In the areas that are 
white, this area--this data's still being used.
     Coastal mapping--if you'd read Chief Justice Roberts's 
dissenting views in the Supreme Court's decision in 
Massachusetts vs. EPA, he noted the Plaintiffs did not submit 
mapping to document the shoreline that it was losing. In fact, 
as the National Academy pointed out, there are at least 22 
different Federal, State, and local definitions of shorelines. 
It's noted a single nationally accepted and consistent U.S. 
shoreline does not exist, and the use of inconsistent shoreline 
definitions between maps, charts, GIS outputs, and other 
products leads user to--to--leads to user confusion and ill-
informed decisionmaking.
     This map shows subsidence across the country. This is--
there's natural and anthropogenic subsidence in many areas of 
coastal and inland America. In many studies, this is ignored or 
discounted. This map shows there are portions of our nation 
that are extremely vulnerable to subsidence, and other regions 
where there's no data at all. Coastal areas, such as Houston, 
that experience extreme subsidence, are vulnerable to flooding. 
Rural inland areas, such as the San Joaquin Valley in 
California, experience subsidence due to groundwater 
extraction. This next slide shows the San Joaquin Valley, where 
the extreme subsidence occurs. There's also--this slide here 
shows the Atlantic coast, Jersey Shore, subsidence occurring. 
NASA's beginning a program, the very small-scale National Land 
Level Change Map, to monitor subsidence change.
     For inland bathymetry, the Army Corps of Engineers has 
reservoirs that are 50 years old. Sediment buildup has greatly 
reduced the capacity of these reservoirs. As this slide shows, 
there's other areas--the same could be said for other lakes and 
inland waterways. We need bathymetric mapping and surveying of 
sediment monitoring to measure the capacity, and to be able to 
more accurately forecast flooding. For structures inventories, 
it is essential that all FEMA maps show structures. FEMA should 
investigate means for presenting flood risks to individual 
homeowners based on their elevations to their lowest adjacent 
grades, or lowest floor elevations. LIDAR technology in 
particular is ideal for determining these elevations.
     In conclusion, I want to commend FEMA for the--for doing 
the best job possible. It is a difficult job. I hope the 
constructive recommendations I've put forward today will be 
accepted, and the program provide an even greater service to 
our Nation. I thank you for the invitation to present, and I'll 
be looking forward to questions.
     [The prepared statement of Mr. Branfort follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
     Ms. Bonamici. Thank you for your testimony. I now 
recognize Mr. Berginnis for 5 minutes for your testimony.

                TESTIMONY OF MR. CHAD BERGINNIS,

                    CFM, EXECUTIVE DIRECTOR,

            ASSOCIATION OF STATE FLOODPLAIN MANAGERS

     Mr. Berginnis. All right. Thank you, Chairwoman, Chairman 
Foster, Ranking Member Marshall, Ranking Member Norman, and the 
Members of the Subcommittees for holding this important 
hearing, and inviting the Association of State Floodplain 
Managers to testify. I am Chad Berginnis, Executive Director of 
ASFPM, whose 20,000 members include many of the boots on the 
ground State and local officials that use flood maps thousands 
of times each day to help guide development within their 
communities.
     If we measured success in how we managed flood risk by 
total losses in the Nation, we're not doing so well. In the 
past decade our conservative estimate is the Nation's 
experienced an average of $17 billion in flood losses annually. 
This is up from $10 billion annually in the 2000s. Why is this 
happening? There's a number of reasons, but the fact remains 
that far too many headlines repeat a familiar theme, people 
didn't know that they were at risk. For many years our members 
at the State and local level have been concerned they simply 
don't have enough data to inform property owners about flood 
risks, to guide development, to plan for emergencies, or 
prioritize flood mitigation actions.
     In areas we have basic information, like the 100- and 500-
year flood data, we don't have information on other flood 
hazards or future conditions. These data are not available when 
development's occurring, and then we actually are building 
tomorrow's flood problems today. Think about this example. A 
subdivision is proposed in a community in an area that was 
previously agricultural. Because the small stream running 
through the property was never identified as a floodplain, 
homes are built, and then, because there's now a risk, it 
becomes a priority for FEMA mapping. A floodplain is identified 
after the fact, and now everybody's upset. Community officials 
and property owners then fight like heck to dispute the map, 
almost always to make sure that the mandatory purchase of flood 
insurance doesn't kick in.
     Another variation of this problem in a coastal area would 
be where revised flood maps come out, and let's say the flood 
elevations are actually lower than existing maps due to new 
modeling techniques. Because the maps don't include future 
flood conditions, however, local officials are stuck applying 
land use and building standards too low, given that the home 
will likely be there for 100 years or more. Future flood maps 
will eventually come out, and even if they just reflect the 
effect of sea level rise, property owners will face the same 
dilemma, why didn't they know about--when they built the home, 
and why didn't the community protect its tax base by building 
more resiliently?
     The fact is we have a lot of work to do to fully implement 
the National Flood Mapping Program as envisioned by Congress 
when it was authorized in 2012. The program requires the 
identification and mapping of the 100 and 500 year in flood 
areas, areas of present and future population, future flood 
conditions, residual risk zones, and requires the inclusion of 
other relevant data from Federal agencies. In short, the 
expectation set by Congress reflects how we the people already 
view the FEMA flood mapping products as the authoritative 
source of flood hazard information.
     FEMA should continue to lead this effort. At the time 
Congress passed the National Flood Mapping Program, I recall 
testifying to Congress about the status of flood mapping in the 
country. Then we were talking a lot more about quality issues 
in FEMA's existing map inventory. Fortunately, FEMA's made good 
progress on that. The overall quality of the existing inventory 
has improved significantly, and the quality of the maps coming 
out today, by using advanced techniques and technologies is 
quite good.
     However, we do what we measure, and while FEMA has made 
progress on the quality of mapping inventory, there's been 
little or no progress on expanding that inventory to map the 
Nation as the law requires. The fact is only 1/3 of our 
streams, rivers, and coastlines in the country are mapped. No 
appreciable mapping has occurred of future conditions, and 
while there's been some mapping of residual risk areas in the 
country, the data's not being reflected on FEMA's flood maps, 
and it's generally not publicly available. We can sympathize 
with FEMA's dilemma, because to fully implement the vision of 
the National Flood Mapping Program--because Congress must 
appropriate those resources to get the job done.
     Earlier this month ASFPM released our updated cost 
analysis for fully implementing the National Flood Mapping 
Program. A copy of that has been included with our testimony. 
While the costs are large, the cost of inaction and flood 
losses are much larger. The cost to get the job done is less 
than the cost of 6 months of flood disasters occurring in the 
United States. By investing in flood mapping now, we can avoid 
the increasingly large bill for unwise development decision and 
disaster losses later.
     In closing, I want to mention that our written testimony 
identifies some key points--or key inputs into flood models and 
flood mapping. Please understand that having accurate flood 
maps to make the country more resilient requires not only a 
resourced and functioning National Flood Mapping Program, but 
we must also have accurate information establishing rainfall 
frequencies, probable maximum precipitation estimates, create 
and maintain a robust network of stream gauges, and have tools 
to help our coastal and inland floodplain managers to be more 
effective, such as the digital coast website. Our testimony 
identifies several recommendations for you to take action. 
Thank you.
     [The prepared statement of Mr. Berginnis follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
     Ms. Bonamici. Thank you all for your testimony. I know we 
all appreciate your expertise. Before we proceed to questions 
from the Members, I'd like to bring the Subcommittee's 
attention to five documents we have received in preparation for 
this hearing. The documents all speak to the importance of 
improving science inputs into Federal flood mapping and 
resilience efforts.
     The first is a statement from Dave Rosenblatt, the Chief 
Resilience Officer and Assistant Commissioner for Climate and 
Flood Resilience at the New Jersey Department of Environmental 
Protection. The second is a letter from Dr. Rachel Cleetus and 
the Union of Concerned Scientists' Climate and Clean Energy 
Program. Third we have a statement from the Association of 
State Dam Safety Officials. And fourth is a report from 
Princeton University's Woodrow Wilson School of Public and 
International Affairs titled ``Improving Coastal Resilience 
Toward a New National Flood Hazards Reduction Program''. And, 
finally, we have a letter from CoreLogic, Inc., a corporation 
that provides risk analysis and other intelligence information 
to clients. Without objection, I'll place these documents in 
the record.
     And at this point we will begin our first round of 
questions. The Chair recognizes herself for 5 minutes.
     Well, thank you again to all the witnesses for being here 
today. According to the fourth National Climate Assessment, 
projected increases in inland flooding over the coming century 
is estimated to result in an average annual damages of $1.2 to 
$1.4 billion each year by 2050, and, as a result of sea level 
rise, coastal storms and high tides have already amplified 
coastal flooding and erosion. The Pacific Northwest, and my 
home State of Oregon, which I noticed on your map, Mr. 
Branfort, didn't have a lot of green in your LIDAR mapping, we 
have a challenging history of flooding. Some as a result of 
early snowpack melt, increased precipitation in warm 
temperatures in the spring. The mighty Columbia River, in fact, 
completely engulfed the community of Vanport in 1948. It 
crested 15 feet higher than the floodplain, jeopardized the 
livelihoods of thousands of residents. Then, in 1996, I 
remember this one, the Willamette River flooding saturated the 
region, resulting in evacuations, mudslides, and significant 
property damage.
     In rural Columbia County in 1996 and 2007 there was 
serious flooding from the Nehalem River in Vernonia. It 
destroyed homes and schools in 2007, and then they had another 
major flood in 2015. And just earlier this month Oregon 
declared a state of emergency in several counties as a result 
of flooding that had already occurred this year. We can only 
expect that these events will become more extreme and more 
frequent with the climate crisis.
     So, first, according to the National Academies report from 
last year titled ``Framing the Challenge of Urban Flooding in 
the United States'', FEMA mapping methods for river and coastal 
flood hazards do not currently consider distinctive urban flood 
hazards. So, Mr. Berginnis, how could FEMA better address the 
growing urban flood risk?
     Mr. Berginnis. Urban flood risk is a topic that's evolving 
very significantly. Actually, when I go out and talk to our 
chapters, one of the things that has struck me over the last 
couple years is almost everybody says, you know, it's one thing 
we design our infrastructure for one to two inches of rain an 
hour, but we're seeing rainfall events that give you three to 
four inches in a half hour. How do we deal with that? And the 
National Academies study is one of three studies, actually, 
that came out in the last 12 months or so. There's also one by 
the University of Maryland, and the ASFPM Foundation just 
released a report a couple weeks ago on that.
     And I mention those because they're exploring different 
dimensions on it right now, in the practitioner community, 
there actually isn't a lot of agreement on how we address urban 
flooding. There's a couple takeaways that we have, I think, on 
the practitioner's side. One, the Federal Government can 
probably provide tools and resources, but there is a clear 
preference of not having something that emerges from the 
Federal Government that's regulatory. So--because a lot of the 
storm water management and the land use management associated 
with urban flooding is really done at that local and----
     Ms. Bonamici. Sure. It varies a lot, I'm sure, from----
     Mr. Berginnis. Yeah, exactly.
     Ms. Bonamici [continuing]. Area to area.
     Mr. Berginnis. So that would be--I would say that would be 
about the area of consensus right now, is kind of tools and 
resources, but not regulatory.
     Ms. Bonamici. Thank you. And, Mr. Osler, how could Federal 
science agencies, including NOAA, help FEMA better incorporate 
climate trends into urban flood risk assessments?
     Mr. Osler. I think one of the key areas where we can 
collaborate, I think, more closely is that we seek connections 
in the day to day at the practitioner level, but 
organizationally we have a greater need to be directed, I 
think, to have direct linkages. A lot of our programs between 
FEMA and NOAA are complementary, and they have grown up in 
recognition of each other, and yet that is a--that's people 
just paying attention to good government, as opposed to a 
strict mandate of how that linkage should happen and might 
happen.
     Ms. Bonamici. Thank you. I'm going to get another question 
in. The climate crisis is changing the frequency and intensity 
of flooding. Floodplains are no longer as static as perhaps 
they were when the National Flood Insurance Program was created 
in 1968. So, Mr. Berginnis, is focusing on whether a property 
is or is not in the 100-or 500-year floodplain an accurate use 
of the best available science, or is the 1 percent annual 
chance flood the most appropriate indicator of high flood risk 
areas today?
     Mr. Berginnis. Well, again, there's a lot of debate, and, 
interestingly, there is a trend that we're starting to see some 
communities, especially those that are feeling the effects of 
climate change, moving to a higher standard, such as the 500-
year flood elevation. Most recently Houston and Harris County 
have done that. The city of Austin is doing that temporarily, 
until they get new flood maps that reflect the current 
conditions.
     Ms. Bonamici. Thank you. And I'm going to try to set a 
good example and yield back the balance of my time. I have an 
additional question I'll submit for the record. Next I 
recognize Mr. Gonzalez for 5 minutes for your questions.
     Mr. Gonzalez. Thank you, Madam Chair, and for your 
consideration on the timeliness. So thanks for this hearing. 
I'm also on the Financial Services Committee, so we've sort of 
wrestled with this issue in that Committee. Good to see it 
here. It's obvious to me that this needs to be done in 
collaboration. It's clear to me that we have to better adapt to 
a changing climate, and take proactive steps that ensure 
Americans are protected from harm. One way to do that is to 
make sure that we're not building new homes or businesses in 
areas that have the potential to be wiped out.
     I'd like to start with Mr. Grimm. In your testimony you 
highlighted the significant increase in annual flood losses 
since the 1980s. In your estimation, what percentage of today's 
NFIP costs are associated with repetitive loss properties?
     Mr. Grimm. Repetitive loss properties create a significant 
drain on the National Flood Insurance Program. You know, those 
are the properties that flood repeatedly. Many of them are 
outside of the floodplain, which causes the issue around the 
mapping program, in terms of getting to mapping beyond the 
binary line. I'll have to get back to you on the exact 
percentage that is the drain on--the number of claims on the 
program. It is significant. What I'd like to draw the attention 
to, though, is on the mapping program, moving away from the 
binary in and out nature of our flood maps.
     Mr. Gonzalez. Yeah.
     Mr. Grimm. As one of the Members pointed out, in 1968, 
when the maps were originally designed to be an insurance tool, 
many communities, and States, and local governments have moved 
well beyond that. We have to move away from that to a graduated 
risk analysis so that we can address those areas that flood 
outside of the current flood mapped area.
     Mr. Gonzalez. Can an individual today build a property in 
a flood prone region and expect to be eligible for insurance 
coverage from NFIP?
     Mr. Grimm. In a participating community in the National 
Flood Insurance Program, flood insurance is available for 
anybody inside a special flood hazard area or outside of the 
special flood hazard area.
     Mr. Gonzalez. I mean, it seems to me that this sort of 
behavior should be discouraged. I mean, the way I look at this, 
from a climate standpoint or an energy standpoint, is we're 
very early stages with respect to what'll probably be a multi-
decade energy transition, unless somebody can tell me that they 
can make steel, cement, plastic, or ammonia without fossil 
fuels. I have no idea how to do that at scale without them, and 
so I think we're very, very early stages, and so adaptation has 
to be central to the discussion and mitigation. And I don't 
know that we spend enough time on that, frankly, with respect 
to the flood program, but--talking about energy issues period 
is just the realities of where we are currently at in the 
energy transition, and what it's going to take, and how long 
it's going to take to get there. I think multi-decades, at 
minimum.
     I'll stick with you, Mr. Grimm, for my last question. As 
you noticed in your testimony, in 2015 TMAC recommended FEMA 
incorporate future flood hazard conditions. To this date, 
however, FEMA continues to only look at current risk. What 
specific steps is FEMA taking to incorporate this change, and 
what have been the biggest barriers to seeing it through?
     Mr. Grimm. Sure. Yeah, FEMA continues to consider all the 
recommendations of the Mapping Advisory Council around future 
conditions. They recommend, for non-regulatory products, 
looking at future conditions. To date we've done a number of 
pilot efforts. I mentioned one in my oral testimony, that we're 
currently working with New York City on sea level rise. We've 
also done a few others around the Nation, on the West Coast, as 
well as some inland areas, and some erosion--future erosion 
potential.
     As I mentioned--I think as Chad mentioned, there's 3.5 
million miles of streams in the United States. We've only 
mapped 1.1 million miles. Our resources and the decisions that 
we've had to make around--with State and local governments is 
to focus those resources in those higher risk areas that we 
are--have made the assumption on insurance policies and 
population, therefore, there are certain things that we have 
not been able to directly attack, in the sense of future 
conditions on every flood map. What we do is we look to our 
partners, such as NOAA, and the Sea Level Rise Viewer, and 
other technologies. Chad also mentioned, and Mark mentioned, 
the Atlas-14, and keeping that up-to-date so that we can 
incorporate the appropriate data and technologies, in 
particularly around the Sea Level Viewer.
     Mr. Gonzalez. Thank you, and I yield back.
     Ms. Bonamici. Thank you. I now recognize Mr. Lamb from 
Pennsylvania for 5 minutes for your questions.
     Mr. Lamb. Thank you, gentlemen, for being with us. We 
found out last year that the Army Corps of Engineers, their 
flood risk management efforts, just in the Upper Ohio River in 
my district--this was in 2018--prevented an estimated $1.11 
billion in flood damages, and historically, kind of in the 
modern era, they estimate that to be $36 billion just for the 
Ohio. Anyone who's been to Pittsburgh knows we have three 
rivers that converge at the city of Pittsburgh, and, if you 
look at it, all told, it's potentially more than $100 billion. 
A lot of it from the reservoirs that they built, you know, 100 
years ago, in the 1920s.
     Does FEMA--I'll start with you, Mr. Grimm, if that's OK. 
Does FEMA look at these steps that are being taken by the Army 
Corps historically, and on an annual basis, to prevent flooding 
damage as part of your assessment of--and creation of the flood 
maps? Do you--I guess do you work with the Corps and take into 
account their research and work, and their actual efforts on 
the ground?
     Mr. Grimm. Yeah, thank you, sir. We absolutely do. The 
Corps is, in fact, one--a very, very close partner. I currently 
have somebody from the Corps actually sitting outside my office 
who's on detail for 6 months, and we're coordinating on 
residual risk in the National Levee Data base, and other 
projects. When a project is constructed, FEMA absolutely works 
with the Corps of Engineers and State and local partners, and, 
when appropriate, we incorporate those structures into our 
flood mapping program, and the resulting flood maps.
     Mr. Lamb. OK. So if they could do--like, let's say that 
next year in Western Pennsylvania the Corps could only do 80 
percent of the work that they did this year, you know, because 
of less personnel and less budget. You know, they couldn't work 
on the reservoirs as much, or locks and dams, or whatever--all 
the stuff that they do. Would that make it maybe harder to plan 
for future floods, or you would have to think that there might 
be more financially? You know, that $1 billion money saved 
figure might get a little higher if the Corps is doing less 
work, would you agree on that?
     Mr. Grimm. Yeah. So, in order to have a Corps of Engineers 
structure reflected on the flood insurance rate map, it has to 
meet certain engineering standards that it reduces risk. So, as 
those structures progress and get completed, they get 
incorporated into the maps. If there's something that's, for 
example, under construction, but not providing protection yet, 
we would not recognize that on the flood map, so any slowdown 
in work would, as a result, may not be reflected.
     Mr. Lamb. OK. That's helpful. And I was referring to the, 
you know, President's budget again this year offers to cut 22 
percent from Army Corps' overall budget, which, regardless of, 
you know, where they say that would come from, I think we can 
all assume it would lead to a slowdown in a lot of projects and 
ongoing construction, so I'm happy to hear you say that's 
important to your work, and we'll do what we can to restore, or 
even grow that funding.
     The last thing--I just wanted to ask Mr. Branfort, you 
mentioned working with the Corps as well, which is obviously, 
you know, they're very important to our region for a lot of 
reasons, but, you know, we have these huge and historic 
reservoirs on the upper parts of our rivers, especially up on 
the Allegheny. I was not familiar with the terms that you used, 
and if you could just repeat the--I keep wanting to say 
Ba'athification, which is a word from the Iraq War, but was----
     Mr. Branfort. Bathymetric.
     Mr. Lamb. Bathymetric, OK. So is that something that the 
Corps is already doing at reservoirs like we have on our 
rivers, or you're saying it's something they should be doing in 
the future----
     Mr. Branfort. It is happening on some of the reservoirs--
--
     Mr. Lamb. OK.
     Mr. Branfort [continuing]. And river, yes.
     Mr. Lamb. But it could be----
     Mr. Branfort. Primarily----
     Mr. Lamb [continuing]. To a greater----
     Mr. Branfort. Historically it's been on navigable rivers, 
is where we've done that, and then the--dredge it to keep the 
river channels open, but it has been occurring over the last 
several years on a number of reservoirs to monitor sediment 
buildup.
     Mr. Lamb. OK. Is--would it be fair to say that the older a 
reservoir is, the more likely it should undergo that kind of 
analysis?
     Mr. Branfort. That would make the most sense.
     Mr. Lamb. Like these 100-year-old ones?
     Mr. Branfort. Yeah.
     Mr. Lamb. OK. And is it--essentially what you're saying 
that the sediment builds up over time on the sides and bottom 
so it's--you're sort of squeezing water----
     Mr. Branfort. You have less capacity--yes. We've seen--the 
one example I had up with the map was Cochiti Reservoir in New 
Mexico, where the upper reaches are filled in 70 feet of 
sediment vertically.
     Mr. Lamb. And do they--does the Corps contract with firms 
like yours to do that work, or do they just do it themselves? 
Do they contract----
     Mr. Branfort. Both.
     Mr. Lamb. OK, both. OK. Excellent. Thank you, gentlemen. 
Madam Chair, I yield back.
     Ms. Bonamici. Thank you. I now recognize Dr. Babin from 
Texas for 5 minutes for your questions.
     Mr. Babin. Thank you, Madam Chair, and thank you all for 
being here, your expert witness testimony. I appreciate the 
opportunity to have this discussion on flood mapping, which 
happens to be of great importance to my district in Southeast 
Texas. I represent the 36th District from Houston over to 
Louisiana. Southeast corner of Texas has been hit many times 
over the last few years.
     The accuracy and consistency of flood mapping is critical 
in my district, carrying tremendous impacts on communities and 
homeowners. It is important to realize that these maps cannot 
be done on a one-size-fits-all approach, and that the data that 
they're based on is critical to having accurate maps. I 
represent a community down in Hardin County, for example, 
Hardin County, Texas, which just went through an arduous 
process of redoing their flood maps with FEMA. Long story 
short, the new flood maps were almost drawn with the data from 
1975, instead of using the more recent data from 2010. This 
mistake was fixed by the community, but had it not been caught 
by local water control improvement district, it could've had a 
very significant detrimental impact on the community.
     So, Mr. Grimm, I have other counties that are using flood 
maps that are based on data from 20 to 30 years ago, and while 
different counties have maps like Hardin County, using up to 
date data based on aerial surveys and extensive studies, what 
is the determination for who is getting updated maps? Please, 
sir.
     Mr. Grimm. Sure, thank you, sir.
     Mr. Babin. Yes, sir.
     Mr. Grimm. So FEMA works with--this is a shared 
responsibility, No. 1. This is a responsibility that--working 
with the local government, working with the State government, 
and the Federal Government, and all the partners, to work 
through the process of the mapping. We start the mapping 
process with what's called a discovery meeting, where we get 
together at the local level and bring everybody to the table to 
talk about what needs to be studied, what areas are at risk, 
and what areas we need to extend the mapping to. It's a 
conversation that takes some time. We then go into the data 
collection phase of that process, and eventually we get through 
the data collection and producing the flood map. It then goes 
through a process of public review, and----
     Mr. Babin. That.
     Mr. Grimm [continuing]. It's----
     Mr. Babin. When you say public review, are you talking 
about that individual county, or city, or----
     Mr. Grimm. Yeah.
     Mr. Babin [continuing]. Metropolitan area?
     Mr. Grimm. Yeah.
     Mr. Babin. The reason I'm asking this is because Hardin 
County, for example, they're scared to death. These new flood 
maps, they want to have input from the county, and they want to 
have transparency. So go ahead, resume. Thank you.
     Mr. Grimm. Yeah. Yes, sir, I couldn't agree with you more.
     Mr. Babin. Yeah.
     Mr. Grimm. I mean, the--FEMA wants community and county 
input and review to be partners in this process. It is--we 
believe it is a shared responsibility, and we cannot do it 
without that conversation to happen. And, you know, I will 
commit to you that I am glad to reach out to our regional 
office and ensure that is happening. I am----
     Mr. Babin. Really appreciate----
     Mr. Grimm. --Region Six Office, I am confident that they 
do that, and I'd be glad to loop back with our regional folks 
to extend that.
     Mr. Babin. That would be wonderful. And so I'm going to go 
on to you, Mr. Osler. Let's talk about the Atlas-14 approach. 
What is the methodology of this approach, and are there any 
arbitrary standards to this approach?
     Mr. Osler. Thank you, sir. So Atlas-14, for the room, is a 
product by NOAA that helps to understand the statistical 
frequency of rainfall in different parts of the Nation. One 
thing that's important to know, there is no steady authorized 
stream of funding for Atlas-14. It is not a funded, supported 
product by NOAA, despite its critical contribution to this 
discussion across the Nation. And so, what you asked about 
methods, that changes. That--there is a pool funding mechanism 
to fund Atlas-14, where local municipalities or States 
essentially pass the hat to create the funding to trigger 
NOAA's uptake of an update to Atlas-14, typically at the State 
level.
     And so the approach, then, is state of the science, state 
of the measurements, that--whenever that update has been made. 
But if you look across the Nation, it's a patchwork coverage 
now in the degree to which those data are up to date or not.
     Mr. Babin. OK. Thank you. I have a few seconds left. Mr. 
Branfort, one of the slides you showed earlier zoomed on a 
specific area outside of Houston that I recognize as Burnet 
Bay, which is in my district. Firstly, I'd like to know if this 
site was chosen for a reason other than its proximity to 
Johnson Space Center, and secondly, other than knowing where we 
might lose land mass where businesses or houses have been 
developed, what is the value of knowing where land subsidence 
is occurring? Obviously comparing images taken years ago to 
present images shows a change, but does this data help predict 
where subsidence might take place elsewhere in the country?
     Mr. Branfort. You know, first of all, that image is 
selected because that is a significant area of subsidence. It's 
just the amount of subsidence that's occurring there. We have 
very little data nationwide as--we--monitoring subsidence 
nationwide, it's just the areas we've known where it's occurred 
and, you know, watched it. I don't think that that gives us a 
forecasting tool for where--when it happened in other places. 
One of the major problems with subsidence is it's gradual over 
a larger area, which takes down the survey control that you use 
to typically monitor elevation data, and it takes down the 
whole area, so you can get a broader, more accurate map over 
the area.
     Mr. Babin. All right, thank you. I have other questions, 
but I'm out of time, so thank you, Mr. Chairman.
     Mr. Lamb [presiding]. Recognize Mr. Tonko for 5 minutes.
     Mr. Tonko. Thank you, Mr. Chair, and thank you to all of 
the--my colleagues that--who have helped work on putting this 
hearing together, and we thank all of our witnesses for their 
time and expertise that's shared today.
     As we have heard over and over again, floods are the 
primary culprit of natural disasters in the U.S., causing over 
$190 billion in damages last decade. This damage total has been 
increasing due to climate change driven extreme weather events, 
raising concern amongst homeowners and investors about the 
safety and security of their property. The tool they must rely 
on to assuage those concerns, however, seems broken. FEMA's 
flood insurance rate maps, or FIRMs, are meant to identify 
statistically likely flood risk. However, they have done a poor 
job of doing that lately.
     External estimates show that about three times as many 
people live in serious flood risk as are shown on FEMA maps, 
and these findings were sadly affirmed a few years back during 
Hurricane Harvey. Eighty percent of the high-water rescues 
during Harvey, 80 percent, were outside the 500-year flood 
plan--floodplain. So, to repeat, the Federal tool designed to 
predict even the slightest possibility of flood risk failed to 
predict 80 percent of the flood risk when they needed it most. 
No one should accept this failure rate, and we must improve our 
flood maps for the sake of American homeowners, business 
owners, and investors.
     So, Mr. Berginnis, you highlight one major strategy to 
improve our FEMA maps, simply finish mapping elevations. And I 
agree with you that we must finish this critical task, however, 
do you believe that accurate elevation data are enough to 
predict flood damage from these extreme storms, such as 
Hurricane Harvey?
     Mr. Berginnis. In finishing the job, one of the things 
that I think's a credit to Congress, in 2012, is recognizing 
the fact that we use flood maps in a lot of different ways, and 
have different types of flood hazard areas, so not just a 
statistical floodplain, but residual risks, future conditions. 
And so, when we talk about finishing the maps, we're also 
talking about adding those things that currently are not on the 
flood map, so it's actually doing both, and we think at least 
that's a good start, because one of the other aspects, and we 
mentioned this in our written testimony, is that other Federal 
agencies and States are producing unique products, but one of 
the problems right now is that while FEMA has developed a good 
online tool that can layer data, there is not good connectivity 
to those State or other Federal resources. FEMA had recently 
been able to work to get COBRA (Coastal Barrier Resources Act) 
maps that now interface with that, and so we think that FEMA's 
going in the right direction, but it's not there yet.
     Mr. Tonko. OK. And I--thank you for that. And it's 
important that we recognize the widespread need for these 
climate data products. Climate data do more than predict 
temperatures. They save billions of dollars and thousands of 
lives. This administration is actively putting citizens at risk 
by decimating critical budget items needed to collect data 
critical for flood prediction. It looks to cut the USGS and 
NOAA, agencies that collect the data needed to predict future 
rainfall, stream flow, and floods, by 40 percent and 24 percent 
respectively. It zeroes out NASA's Earth science missions that 
monitor global climate. So I appreciate all of the work that is 
being done to improve our flood maps despite these backward 
views, however, we should demand that American scientists are 
given every tool available to do this job right for the 
American people.
     I'm just curious too, with our agencies represented, is 
there a discussion about climate change, and the impact on 
flood mappings?
     Mr. Grimm. Absolutely. Climate is changing. FEMA is 
addressing climate in our program areas. We have incorporated 
sea level rise curves into our Mitigation Grant Program, in our 
benefit-cost analysis for use in grant awards, into our 
planning guidance for--to States and local governments for 
addressing mitigation planning at the national level. Most 
recently we released the National Mitigation Investment 
Strategy, which is to bring the whole community together to 
align our investments, including around future conditions.
     Mr. Tonko. And NOAA would do the same thing? Do you 
discuss climate change?
     Mr. Osler. Not only discuss it, sir, but NOAA's--one of 
NOAA's core missions is to research and monitor our----
     Mr. Tonko. Well, then----
     Mr. Osler [continuing]. Changing climate.
     Mr. Tonko [continuing]. My question--obvious question is 
how does that not percolate to the top of the executive branch? 
If we have climate impacting a lot of this mapping and data 
assimilation, why do we not accept the concept of climate 
change? OK. I yield back.
     Mr. Lamb. Last round. I think, for me, I just have one 
broad question that I'd like to throw out to each of you. As 
the science for identifying flood hazards evolves, FEMA's flood 
mapping program updates its engineering and mapping standards, 
including the models that are used. The standards are 
published, vetted, peer reviewed, and updated regularly to 
ensure that they're aligned with current best practices. Every 
5 years FEMA re-assesses the studies behind each flood map to 
see if the data and models that were used to create it meet 
current standards. Despite this, current best practices do not 
always grant accurate results in a nation with a rapidly 
changing climate and rising sea levels, with change in some 
areas occurring faster than 5-year intervals. So I think that's 
uncontroversial, and more or less what we heard today.
     For each of you that would care to comment, I think the 
closing question we have is what sources of data require 
improved data collection and/or additional funding? So national 
rainfall frequency data, stream gauge data, tidal gauge data. 
In other words, if you were sort of designing your wish list 
data set, or dream data set, what would it include, and any 
suggestions for how we could get it to you? Maybe starting with 
Mr. Grimm?
     Mr. Grimm. Sure. I think you read off the list, honestly. 
You know, when we're pulling data together to make a flood map, 
you know, you're putting together four buckets, four elements, 
to a flood map, the topographic data, so that LIDAR, that 3DEP 
Program, right, it's a critical element to what we do. We 
cannot produce accurate flood maps without accurate elevation 
data. Then you move into the hydrology and hydraulic areas, in 
terms of how much water falls. That's my buddy here, NOAA 
Atlas-14, and the hydraulics, and advancements in technology on 
automated mapping techniques, for example, that the private 
sector often develops.
     Then you move into the base mapping, and, you know, the 
streets, the infrastructure, and collecting all of that data. 
You know, looking down the row here, there's a lot of folks who 
are collecting this data, and a lot of agencies that collect 
this type of data that, without it, FEMA won't be able to 
advance and move technology forward, and have accurate data to 
produce an accurate flood map. One--and one thing I want to 
say, we want to move away from risk identification of that 
binary line. We want to move into graduated risk analysis and 
true flood management of multi-frequency hazards, including 
future conditions.
     Mr. Lamb. Thank you. Mr. Osler?
     Mr. Osler. Thank you. Mr. Grimm nailed it, in terms of the 
typical ingredients of Earth science data that are needed to 
map floods, and so I would double down on that statement about 
foundational information. Where's the ground, where's the 
water? How are those changing, both water from the ocean and 
from precipitation? I would note on the sea level rise front we 
maintain just over 200 authoritative water level gauges which 
were--have been installed, in some cases, for over 100 years, 
and these have been the harbingers of sea level rise, and help 
us actually track and understand rates of change on the ground.
     The purpose of those gauges, when they were initiated, was 
not to track changing climate, but to help marine commerce, and 
that mission remains strong today. However, there are 
significant gaps now that sea level rise is affecting every 
part of our coastline, and changing water levels on the Great 
Lakes. So we have gaps in our ability to accurately, and in 
real time, predict seal level change impacts in the areas in 
between those gauges, so we're talking seriously about 
revolutionizing the ability to model and fill in those gaps so 
that we can help provide even more detailed information.
     Mr. Lamb. Thank you. Mr. Branfort?
     Mr. Branfort. Definitely--both of them referred to the 
3DEP elevation-based model. There is a significant portion of 
this country, about a third of the country--Mr. Grimm referred 
to digital copies of paper maps, where the old paper maps have 
been converted to a digital format, but they're still--they 
were low accuracy to begin with, and been converted, and then 
we've had massive changes since then, so the base 3DEP 
elevation data for the Nation is a starting point for all----
     Mr. Lamb. That's the key. And, last, Mr. Berginnis?
     Mr. Berginnis. And maybe, being last, I could say all of 
the above. But the one thing I do want to point out, and it was 
from Mr. Osler's testimony, while 3DEP, while stream gauging, 
the Flood Mapping Program, all have ongoing programs, 
authorities, requirements, and funding, Mr. Osler pointed out 
something I think that's key, and that is our precipitation 
frequency information that Atlas-14--currently there's no 
mandate, and there's no sustained funding at all. That is a 
huge problem, because that's a key input into flood maps.
     Mr. Lamb. Thank you all. Before we bring this to a close, 
I want to thank the witnesses for testifying. The record will 
remain open for 2 weeks for additional statements from the 
Members, or any additional questions the Committee may ask of 
the witnesses. The witnesses are now excused, and the hearing 
is adjourned.
     [Whereupon, at 4:20 p.m., the Subcommittees were 
adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                              Appendix II

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
